No. 19-756

 

IN THE

Supreme Court of the United States

LOUIS TAYLOR,

Petitioner,
v.

COUNTY OF PIMA; CITY OF TUCSON,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICUS CURIAE
AMERICAN BAR ASSOCIATION IN SUPPORT OF
PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,956 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 13, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
